NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




                   REVIEW OF NCUA’S COMPLIANCE
                        WITH OMB M-06-16
                     PROTECTION OF SENSITIVE
                       AGENCY INFORMATION

              Report #OIG-07-01       February 7, 2007




                         William A. DeSarno
                          Inspector General


    Released by:                          Auditor-in-Charge:



    James Hagen                          Tammy F. Rapp, CPA, CISA
    Asst IG for Audits                   Sr Information Technology Auditor
                             TABLE OF CONTENTS




Section                                                                                      Page

          EXECUTIVE SUMMARY                                                                    1

          INTRODUCTION                                                                         2

          BACKGROUND                                                                           2

          OBJECTIVE                                                                            3

          SCOPE & METHODOLOGY                                                                  3

          RESULTS                                                                              4

   A        Confirm identification of personally identifiable information protection needs     4

   B        Verify adequacy of organizational policy                                           8

  C         Implement protections for PII transported/stored offsite                           8

  D         Implement protections for remote access to PII                                     9

   E        Encrypt all data on mobile computers/devices                                      10

   F        Allow remote access only with two-factor authentication                           13

  G         Use a time-out after 30 minutes inactivity                                        13

  H         Log all data extracts holding sensitive data and verify erased within 90 days     13

Appendix
   A     OMB Memorandum M-06-16

   B      NCUA Management Comments
       REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                       Report #OIG-06-10




                                          EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General
(OIG) performed a limited scope review assessing the NCUA’s actions to ensure
that personally identifiable information (PII) and sensitive information is safeguarded,
in accordance with the Office of Management and Budget (OMB) Memorandum M-
06-16, “Protection of Sensitive Agency Information.”1

To determine compliance with OMB M-06-16, we interviewed key agency officials
responsible for privacy protection, reviewed applicable policies and procedures
related to privacy, inquired about outstanding issues identified during the 2006
Federal Information Security Management Act (FISMA) audit, and compared
encryption products used at NCUA with the National Institute of Standards and
Technology’s (NIST) Federal Information Processing Standards 140-2 validated
product list. We performed limited tests on control procedures identified during this
review.

As a result of this review, the OIG determined that NCUA needs to strengthen its
privacy program to ensure that PII and sensitive data are appropriately protected.
Most importantly, NCUA needs to ensure that member financial and personal data is
protected from potential unauthorized access. Although we identified several
weaknesses in the actions NCUA has taken to protect PII and sensitive information,
we determined that NCUA is making progress to strengthen its policies and
procedures for protecting both.




1
    http://www.whitehouse.gov/omb/memoranda/fy2006/m06-16.pdf




                                                                1
       REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                       Report #OIG-06-10


INTRODUCTION:

Following numerous incidents at various Federal agencies involving the
compromise or loss of sensitive personal information, OMB issued memorandum
M-06-16 on June 23, 2006. That memorandum required agencies to take
specific actions to protect PII and sensitive information as outlined in NIST
Special Publication 800-53 and 800-53A. In addition, OMB recommended that
agencies take four additional actions to protect sensitive agency information.
OMB requested that agencies ensure that the safeguards outlined in M-06-16 be
reviewed and in place within 45 days from the issuance of the memorandum
(August 7, 2006). Inspectors General were also requested to conduct
a subsequent review to asses their respective agency’s compliance.

The President’s Council on Integrity and Efficiency (PCIE) and Executive Council
on Integrity and Efficiency (ECIE) jointly developed a data collection instrument
(DCI) and review guide to assist Inspectors General in determining their agency’s
compliance with OMB Memorandum M-06-16. The review guide and DCI were
closely linked to the actions OMB requested of agencies to protect PII and
sensitive data and were likewise used to perform this limited scope review.


BACKGROUND:

PII is defined by OMB in M-06-19 as:

             “[a]ny information about an individual maintained by an agency, including, but
             not limited to, education, financial transactions, medical history, and criminal
             or employment history and information which can be used to distinguish or
             trace an individual's identity, such as their name, social security number, date
             and place of birth, mother’s maiden name, biometric records, etc., including
             any other personal information which is linked or linkable to an individual.”2

Various statutes and authorities address the need to protect PII and other sensitive
information held by government agencies, including the Federal Information Security
Management Act (FISMA), the E-Government Act of 2002 (E-Gov Act), the Privacy
Act of 1974, as amended, and OMB Circular A-130, Management of Federal
Information Resources. In particular, FISMA requires agencies to have a security
program and controls for systems to protect sensitive information.

FISMA also requires agencies to implement standards and guidelines developed by
the NIST. Relevant standards are set forth in the following NIST publications:



2
    OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and Incorporating the Cost for
    Security in Agency Information Technology Investments, July 14, 2006




                                                                2
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10


   •   Federal Information Processing Standards (FIPS) Publication 199, Standards
       for Security Categorization of Federal Information and Information Systems,
       February 2004;

   •   FIPS Publication 200, Minimum Security Requirements for Federal
       Information and Information Systems, March 2006; and

   •   FIPS Publication 201, Personal Identity Verification for Federal Employees
       and Contractors, February 2005.

Additional guidance on protecting PII and other sensitive information is described in
the NIST Special Publication (SP) 800 series. Among them, SP 800-53,
Recommended Security Controls for Federal Information Systems, and SP 800-53A,
Guide for Assessing the Security Controls in Federal Information Systems, set forth
key criteria for assessing compliance with FISMA requirements. This guidance forms
the basis for the OMB M-06-16 Security Checklist covering protection of remote
information. OMB Memorandum M-06-16 conveys OMB’s intent that Federal
agencies implement the checklist and take specific required actions for the protection
of sensitive information to compensate for the lack of physical security controls when
information is removed or accessed from outside the agency location.


OBJECTIVE:

The objective of this limited scope review was to assess the NCUA’s actions to
ensure PII and other sensitive information are safeguarded, in accordance with
OMB Memorandum M-06-16, “Protection of Sensitive Agency Information.”


SCOPE & METHODOLOGY:

To determine compliance with OMB M-06-16, we interviewed key agency officials
responsible for privacy protection including the Senior Privacy Official, the Chief
Information Officer, the Deputy Chief Information Officer, and the Senior
Information Security Officer. We also reviewed applicable policies and
procedures related to privacy, inquired about outstanding issues identified during
the FISMA audit, and compared encryption products used at NCUA with NIST’s
FIPS 140-2 validated product list. We performed limited tests on control
procedures identified during this review due to the limited time available to
perform this review simultaneous with the annual FISMA audit. In addition, the
NCUA was in the process of implementing many related procedures during and
subsequent to our review which made it difficult to test during field work.

We conducted our work from August 8, 2006 through September 22, 2006. This
report provides a snapshot of NCUA’s progress in meeting OMB M-06-16 as of
August 31, 2006.


                                          3
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10




This limited scope review was performed in accordance with the Quality Standards
for Inspections issued by the PCIE/ECIE in January 2005.


RESULTS:

A. Confirm identification of PII and sensitive information protection needs

The NCUA needs to improve its process for identifying PII and sensitive
information protection needs. For example, under the Privacy Act, NCUA
identifies personal information it collects and maintains in its Systems of Records
(SOR). However, during our review we identified some personal information
maintained in NCUA’s SOR that the agency did not, during the certification
process, designate in the security categorization of “moderate,” as we believe it
should have been. While we found that NCUA’s privacy related policies were
outdated, we also learned that many were in the process of revision. We also
determined that the agency did not specifically identify credit union member
share and loan data obtained during a credit union examination as PII when, in
our opinion, they should have been. We further confirmed that NCUA has not
performed any Privacy Impact Assessments (PIA) for existing systems.

The NCUA Senior Privacy Officer is in the process of taking positive steps to address
privacy responsibilities within the agency. For example, as mentioned above, at the
time of this review the agency was in the process of revising both its SOR, which had
not been updated since February 2000, as well as NCUA Instruction 3226.1,
“Procedures for Implementing Provisions of the Privacy Act of 1974,” which had not
been revised since its issuance in 1976. In addition, the Senior Privacy Officer is
considering proposing the issuance of a new agency instruction that specifically
addresses information security. The Senior Privacy Officer also plans to perform a
PIA for new agency identification cards and is considering whether additional PIAs
are required. Finally, the Senior Privacy Officer has recommended to the Office of
Human Resources (OHR) and the Office of the Chief Information Officer (OCIO) that
an appropriate training program in privacy and information security for agency
employees be devised and implemented.

We agree with the Senior Privacy Officer that credit union member data does not
come within the definition of a SOR under the Privacy Act because the method of
data retrieval is based on a charter number, not a member identifier.
Nevertheless, we found that downloads obtained during a credit union
examination contain PII as defined by OMB. Likewise, while NCUA has indicated
that the AIRES downloads containing credit union member data require
protection, it has not specifically developed a privacy policy articulating
protections for this information. Credit union member data is vulnerable to
unauthorized access or loss because it is stored in multiple formats in NCUA
examiners’ private homes across the country. Sensitive credit union member


                                          4
    REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                    Report #OIG-06-10


data not identified as PII may not have adequate controls in place for its
protection from unauthorized use. Consequently, the loss of this data could be
used for identity theft.

NCUA has performed FIPS 199 categorizations of IT systems. However, there
needs to be an improved process that compares information that may be
identified in NCUA’s SOR with the FIPS 199 categorizations to ensure that all PII
and sensitive data are identified. For example, we identified PII in the
Controller’s Accounting System (CAS 3 ) that were not ranked moderate.
Although the overall confidentiality ranking for CAS was moderate, not all PII was
identified within CAS as moderate. Some examples of PII not identified as
requiring moderate protection includes names, SSN, account numbers, routing
numbers, payment information, personnel information, etc. While certification
and accreditation activities have been completed or are in process, a formal
consideration of privacy has not occurred, resulting in some PII data not being
identified during the categorization process which could result in inadequate
controls over its protection.

Last year’s FISMA evaluation noted that completion of the PIA was required as
part of Certification and Accreditation (C&A) requirements. However, the NCUA
has still not developed a PIA. NCUA needs to perform PIAs to ensure all PII data is
accurately identified.

As shown in the excerpt from management’s response to the 2006 FISMA audit report 4 ,
NCUA opined that the trigger for developing PIAs has not yet occurred.

          “Management acknowledges that the agency is subject to the requirement to
          prepare PIAs as provided in the E-Government Act. Management’s view is that
          the requirement to prepare a PIA, required under the E-Government Act that
          became effective April 17, 2003, is triggered where an agency develops or
          procures an IT system or changes an existing system by adding new uses or
          new technologies or significantly changes how information in identifiable form is
          managed in the system. Generally, a PIA is required where a system change
          creates new privacy risks.

          NCUA last updated its Systems of Records notice effective in February 2000.
          See 65 Fed. Reg. 3486 (Jan. 21, 2000). Management’s position is that, with the
          exception of the new Personnel Security and Identity Management Systems
          required under the Homeland Security Presidential Directive-12 (HSPD-12), the
          agency has neither developed nor procured new IT systems nor made a
          significant change to an existing system that created new privacy risks requiring
          preparation of a PIA. At this time, the agency is in the process of developing a
          PIA for these new systems, updating its Systems of Records notice, and
          preparing related notices and instructions for employees.

3
 Examples of systems included in CAS are financial accounting, procurement, human resources, and travel systems.
4
 OIG Report to OMB on the National Credit Union Administration’s Compliance with the Federal Information Security Management
Act 2006, Report #OIG-06-06



                                                             5
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10


      Management maintains its view that it is not required to prepare and publish a
      PIA conforming to the requirements of the E-Government Act for IT systems in
      existence before April 2003 and which have been maintained without significant
      change. It is our position that our ongoing maintenance of these systems has not
      had an impact on the privacy risk of those systems. Routine maintenance does
      not change the basic functions of the programs; it normally entails updates to the
      user interface, revised edit formulas, etc., which have no bearing on the privacy
      risk level. Nevertheless, management acknowledges that a review of existing IT
      systems to ensure compliance with information privacy laws, regulation, and
      policy is an appropriate and commendable agency aspiration and intends to
      undertake such review as agency resources permit.”

The E-Government Act guides agencies to:

      “To conduct a PIA before: developing or procuring IT systems or projects that
      collect, maintain or disseminate information in identifiable form from or about
      members of the public or initiating, consistent with the Paperwork Reduction Act,
      a new electronic collection of information in identifiable form for 10 or more
      persons (excluding agencies, instrumentalities or employees of the federal
      government). In general, PIAs are required to be performed and updated as
      necessary where a system change creates new privacy risks.”

In response to management’s comments to the FISMA Report, the OIG stated:

      “Per the requirements of section 208 of the E-Government Act of 2002,
      OMB issued guidance to agencies regarding the development of PIAs.
      The guidance provided by OMB applies to all executive branch
      departments and agencies. The Act requires agencies to conduct a PIA
      before developing or procuring IT systems that collect, maintain, or
      disseminate information in identifiable form from or about member of the
      public as well when the changes occur in information collection authorities,
      business processes or other factors affecting the collection and handling
      of such information. Since the inception of the E-Gov Act, NCUA has
      implemented several changes to business process and technical solutions
      that meet the above criteria as changes requiring an update or
      development of a PIA, including the distribution of external hard drives to
      store credit union audit data that are stored at the examiners’ homes, an
      agency-wide update in operating systems (from 2000 to XP), distribution
      of new notebooks, and partial implementation of sensitive data encryption.

      It is the opinion of the OIG that any one of the above changes constitutes
      a change of the magnitude that requires the development of a PIA. Based
      on the identified changes to the methods of collecting, processing, and
      storing PII with the agency’s IT infrastructure, NCUA should develop a PIA
      and maintain it on an ongoing basis.”




                                           6
  REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                  Report #OIG-06-10


Recommendations:

  1. Update privacy related policies in accordance with the Privacy Act and
     applicable OMB guidance. Specifically, NCUA’s Systems of Records
     notice has not been updated since Feb 2000 and the Privacy Instruction
     has not been updated since its issuance in 1976. The agency has
     indicated that it is in process of updating its SOR and the Privacy
     Instruction.

     Management Response: NCUA management issued a revised SOR on
     December 27, 2006.

     OIG Response: We agree with the action taken by NCUA.

  2. Ensure that NCUA develops a more thorough policy addressing the protection
     of credit union member data obtained during credit union examinations.
     Specifically identify CU member data as sensitive PII as required by OMB.

     Management Response: NCUA management agreed to update and
     consolidate agency instructions.

     OIG Response: We agree with NCUA’s planned actions.

  3. Verify that all sensitive and PII data has been identified by performing
     PIAs on Moderate and High systems as required by NIST 800-53A and
     the E-Gov Act. Ensure that sensitive and PII data identified in the
     agency’s SOR is compared with FIPS 199 categorizations and PIAs.

     Management Response: Although NCUA management disagrees, they
     “recognize that conducting PIAs is a worthwhile endeavor, which we
     intend to undertake, resources permitting.”

     OIG Response: We maintain that under the E-Government Act of 2002,
     where OMB issued guidance to agencies regarding the development of
     PIAs; the guidance provided by OMB applies to all executive branch
     departments and agencies. The Act requires agencies to conduct a PIA
     before developing or procuring IT systems that collect, maintain, or
     disseminate information in identifiable form from or about member of the
     public as well when the changes occur in information collection authorities,
     business processes or other factors affecting the collection and handling
     of such information. However, we agree with the proposed actions by
     NCUA Management to undertake conducting PIAs.




                                         7
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10


B. Verify adequacy of organizational policy

NCUA’s existing policy does not address information protection needs associated
with PII that are accessed remotely or physically removed from agency premises.
However, the Privacy Officer has stated that she is in the process of updating the
policy which will incorporate information protection needs for PII accessed or stored
remotely.

OMB M06-16 states, “The policy should address the following specific questions:
       1. For Personally Identifiable Information physically removed:
           a. Does the policy explicitly identify the rules for determining whether
               physical removal is allowed?
           b. For personally identifiable information that can be removed, does
               the policy require the information be encrypted and that appropriate
               procedures, training, and accountability measures are in place to
               ensure that remote use of this encrypted information does not result
               in bypassing the protections provided by the encryption?

       2. For Personally Identifiable Information accessed remotely:
           a. Does the policy explicitly identify the rules for determining whether
               remote access is allowed?
           b. When remote access is allowed, does the policy require that this
              access be accomplished via a virtual private network (VPN)
              connection established using agency-issued authentication
              certificate(s) or hardware token?
           c. When remote access is allowed, does the policy identify the rules for
              determining whether download and remote storage of the
              information is allowed? (For example, the policy could permit
              remote access to a database, but prohibit downloading and local
              storage of that database.)”

Recommendation:
   4. Identify PII and include information protection needs for PII accessed,
      transported, or stored remotely in agency privacy related policies.

       Management Response: NCUA management agrees.

       OIG Response: We agree.

C. Implement protections for PII transported/stored offsite

NCUA needs to improve protections for PII transported or stored offsite. We
determined that NCUA is lacking a policy specific to PII transported or stored offsite.


                                           8
       REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                       Report #OIG-06-10


During the FISMA audit, we identified PII and/or sensitive data that were not
encrypted prior to being removed from agency premises. NCUA has started to
implement some encryption capabilities, but did not consider NIST 140-2 validated
products. We also observed during the FISMA audit that, with the exception of social
security numbers, examiners do not have a specific awareness of their
responsibilities to protect other PII and/or sensitive data.

NCUA is in the process of improving several controls related to remote storage.
Specifically, the OIG identified sensitive credit union member data that was being
stored remotely in an unencrypted format on notebooks, external hard drives, CDs,
and personal USB drives during the FISMA audit. Subsequent to our review, the
Office of the Chief Information Officer (OCIO) forced Windows XP encryption of
selected folders on NCUA notebook computers and external hard drives.5

During NCUA’s bi-annual regional conferences in August 2006, the OCIO began to
distribute USB flash drives with encryption capability to examiners with instructions
requiring their use for sensitive data, requiring remote storage, and limiting the use of
CDs. However, we determined the USB drives purchased by NCUA are not 140-2
validated. (See section E for further discussion regarding this topic.) The OCIO also
requested examiners to bring CDs containing sensitive data to the Regional
Conference for destruction by heavy duty shredders provided by the OCIO.

Recommendation:
   5. When updating agency polices and procedures, the agency should ensure
      that PII transported and/or stored offsite is specifically identified, including
      setting forth the steps needed to protect this data. In addition, incorporate
      encryption use in related security policies and procedures.

             Management Response: NCUA management agrees.

             OIG Response: We agree.

        6. Increase employee awareness with respect to responsibility for protecting PII
           and other sensitive data.

             Management Response: NCUA management agrees.

             OIG Response: We agree

D. Implement protections for remote access to PII

NCUA has implemented some protections for remote access to PII such as
establishing a VPN requiring smart cards. However, the agency needs to


5
    This control has not been tested by the OIG since it was in the process of being implemented during our review.



                                                                  9
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10


improve policies and procedures for protecting remote access to PII and
sensitive data.

NCUA needs to specifically identify the types of PII that require remote access
and the users authorized to remotely access PII. In addition, the policy and
procedures should contain the actions required to protect PII that is accessed
remotely.

NCUA established a VPN in 2000 requiring authentication using smart cards that
are issued directly to each authorized user. Although the control requiring the
smart cards was temporarily disabled for several months subsequent to our
review, this control was reimplemented on October 12, 2006.

During the FISMA 2006 audit, the following related weaknesses were identified that
could impact authorized access to PII and/or sensitive data:

   •   User account reconciliations are not performed to ensure appropriate
       authorized access
   •   Users can use unlimited password attempts to gain access to local data
       and users are not required to periodically change password.

Recommendation:
   7. When updating agency policies, ensure that PII with remote access is
      specifically identified including what steps need to be taken to protect this
      data.

       Management Response: NCUA management agrees.

       OIG response: We agree

   8. Implement recommendations identified during the FISMA audit related to
      privacy, such as performing user account reconciliations and tightening user
      password policies to ensure appropriate authorized access.

       Management Response: “The user account reconciliation has been
       completed. Existing password policies are appropriate.”

       OIG response: We agree with the actions taken by NCUA.


E. Encrypt all data on mobile computers/devices

In M-06-16, OMB recommends that all agencies, “Encrypt all data on mobile
computers/devices which carry agency data unless the data is determined to be non-
sensitive, in writing…” In a recent presentation by NIST officials, NIST stated that



                                          10
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10


sensitive data should be classified Moderate or High triggering at least the moderate
protection controls outlined in NIST 800-53A.

During the FISMA audit, the OIG identified several weaknesses where improvement
was needed in enforcing the use of encryption of sensitive examination data. We
identified sensitive data on examiner notebooks, external hard drives, CDs, and
personal USB drives that were not encrypted. Subsequent to our FISMA audit and
Privacy review, the OCIO has made some progress in protecting its sensitive data.

NCUA currently uses the following types of encryption:

       •   Windows XP on notebook computers,
       •   Windows XP on external hard drives,
       •   WinZip, and
       •   Lenovo flash drives.

After we initiated our Privacy review, the CIO sent several emails to users
providing instructions on encryption. In addition, the OCIO began to force an
encryption process that applied encryption to select folders and files located on
notebook computers:

       •   D:\My Documents – every file and subfolder.
       •   D:\ncuaapps\aires32\exams - only the “exams” folder and its contents.
       •   D:\Outlook – every file and subfolder

Once the user initiated the encryption routine sent by the OCIO, the encryption
would occur automatically in the background on a daily basis. When you place
or create files or folders in encrypted folders, they are automatically encrypted. If
you move a file or folder from an encrypted location to a non-encrypted location,
the encryption will automatically be removed from the file or folder. In addition, if
you move an encrypted file or folder to a CD or DVD, the encryption will
automatically be removed. During our review, the OCIO also emailed
instructions for encrypting the external hard drive with Windows XP.

Subsequent to our review, the OCIO implemented a technical solution that
verified if certain folders and/or documents are encrypted. This solution forced
the encryption on users that did not initiate the routine sent previously. If it finds
documents not encrypted, it automatically encrypts the files without user
intervention.

The OCIO provided WinZip to encrypt and password protect copies and/or
backups of sensitive files. NCUA recommends to its examiners the use of 256
bit AES encryption with a minimum password 7 characters long and using three
types of characters. The OCIO also began distribution of Lenovo flash drives to
examiners during the regional conference.


                                          11
       REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                       Report #OIG-06-10


Although the OCIO implemented and distributed WinZip and Lenovo flash drives for
encryption, neither of these products have been FIPS 140-2 validated. FIPS 140-2
“… is applicable to all Federal agencies that use cryptographic-based security
systems to protect sensitive information in computer and telecommunication
Systems . . .” and provides a standard for Federal agencies when selecting
cryptographic-based security systems for protecting sensitive data. FIPS 140-2
validation provides assurance because products have been independently tested to
ensure they meet applicable standards. The following is an excerpt from NIST
explaining their position on unvalidated cryptography modules:

               “Use of Unvalidated Cryptographic Modules by Federal Agencies
              and Departments

              FIPS 140-2 precludes the use of unvalidated cryptography for the
              cryptographic protection of sensitive or valuable data within Federal
              systems. Unvalidated cryptography is viewed by NIST as providing no
              protection to the information or data – in effect the data would be
              considered unprotected plaintext. If the agency specifies that the
              information or data be cryptographically protected, then FIPS 140-2 is
              applicable. In essence, if cryptography is required, then it must be
              validated. “ 6

Recommendation:
   9. Ensure any encryption products implemented or considered for
      implementation comply with applicable laws and regulations, including FIPS
      140-2.

              Management Response: “In the future, to the extent that we can find NIST-
              certified products that meet our quality and performance requirements as well
              as our schedule demands, we will ensure, to the best of our ability, that we
              purchase certified products.”

              OIG Response: We agree with the intent of NCUA’s proposed action to
              purchase certified products.

        10. Update security policies and procedures with encryption instructions, user
            responsibilities, and prohibit use of CDs, personal USB drives, and other
            unencrypted media for storage of sensitive and/or PII data.

              Management Response: NCUA management agreed.

              OIG Response: We agree.



6
    http://csrc.nist.gov/cryptval/



                                                12
   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10


F. Allow remote access only with two-factor authentication

At the time of our review, smart cards were not required for authentication to the
VPN because they were temporarily disabled as a result of expired certificates.
Effective October 12, 2006, the OCIO reimplemented smart card authentication
for the SWAP VPN.

G. Use a time-out after 30 minutes inactivity

We determined that some remote access and mobile devices used by the NCUA are
configured to require reauthentication after 30 minutes of inactivity. Notebook
computers used by NCUA personnel are configured to time-out after 30 minutes of
inactivity. However, we determined that Blackberry devices time-out settings can be
controlled by the user. We also noted that applications used by the NCUA do not
have a time-out feature.

Recommendation:
   11. When Blackberry devices are issued, ensure they are configured so
       reauthentication is required after 30 minutes of inactivity. In addition,
       determine if the configuration can be locked down to prevent users from
       changing the configuration.

       Management Response: NCUA management implemented this
       recommendation.

       OIG Response: We agree with the actions taken by NCUA.


H. Log all data extracts holding sensitive data and verify erased within 90 days

The OIG recognizes the difficulty associated with this control and agrees that if the
resources exceed the benefits provided by this control and the agency has
implemented related controls contained in SP 800-53, SP800-53A, and OMB 06-16,
sufficient protection would exist that would make this control redundant of better
controls.




                                         13
                REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                           COMPLIANCE WITH OMB M-06-16
                                 Report #OIG-06-10
                                                                       Appendix A




http://www.whitehouse.gov/omb/memoranda/fy2006/m06-16.pdf




                                         1
                 REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                            COMPLIANCE WITH OMB M-06-16
                                  Report #OIG-06-10
                                                                          Appendix B

TO:           James Hagen, Assistant Inspector General for Audits

FROM:         Sheila A Albin, Associate General Counsel & Senior
                     Agency Privacy Official
              Neil McNamara, Deputy Chief Information Officer

SUBJ:         Comments on OIG’s Review of NCUA
              Compliance with OMB M-06-16

DATE:         January 30, 2007


Introduction and Summary

This memorandum responds to the OIG’s request, dated January 22nd, for
management’s comments on its Draft Review of NCUA Compliance with OMB M-06-
16 (Draft Review).

We generally support the recommendations in the Draft Review but, as discussed
more specifically below, management disagrees with or believes several of the
eleven recommendations require clarification. Several recommended actions were
already underway at the time of OIG’s review in August 8 to September 22, 2006,
and, as noted below, some were completed before the first Draft Review was
provided to management.

This memorandum also provides the following comments to clarify or correct certain
premises and other statements in the Draft Review forming the bases for the
recommendations.

Discussion

For ease of reference, these particular comments track the order in which the subject
or a statement appears in the Draft Review, not necessarily in order of significance.

Page 1 and throughout. “Personally Identifiable Information”

Use of the phrase “personally identifiable information” (PII) understandably creates
some confusion because the definition used, which is the only one management
believes OMB has provided, is applied to other legal requirements. The definition of
PII quoted at page 2 of the Draft Review is an OMB definition in OMB M-06-19 that,
as defined in that memorandum, applies to OMB’s policy on reporting security
incidents. This memorandum followed previous OMB issuances on information
security, including OMB M-06-16, the subject of the Draft Review. Although using
this definition in considering compliance with OMB M-06-19 is not objectionable, we
note that OMB M-06-19, itself, does not define PII.


                                          1
                           REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                                      COMPLIANCE WITH OMB M-06-16
                                            Report #OIG-06-10
                                                                                                                    Appendix B

PII is not the same and should not be equated with the definition of a privacy record
under the Privacy Act. Also, PII is not defined in FIPS 199, “Standards for Security
Categorization of Federal Information and Information Systems.” FIPS 199, in fact,
has a broader purpose stated as “information security,” not only information about
individuals.7

The second Draft Review now generally references PII and sensitive information
together. Nevertheless, coupling the categories does not address the lack of clarity.

At page 5, the Draft Review notes the Privacy Officer is developing a plan for privacy
and information security training. To clarify, the Privacy Officer met with
representatives of OHR and OCIO in 2006 to address training and revision of existing
agency instructions on privacy and information security. It is, however, the Director of
OHR, with “advice from the General Counsel,” who is responsible for Privacy Act
training. 12 C.F.R. §792.69. In December 2006, OHR provided the Privacy Officer
an outline of its plans to address Privacy Act training. The Privacy Officer anticipates
OHR and OCIO staff will work together to develop appropriate training in information
security for agency employees.

We recommend the Draft Review note in some fashion (possibly a footnote on page
5 and to recommendation #1) that the SOR has been updated, published in the
Federal Register, and posted on the agency’s website.

At page 6, the Draft Review states, in connection with noting that NCUA has
performed FIPS 199 categorizations of IT systems, that “there needs to be an
improved process that compares information that may be identified in NCUA’s SOR
[Privacy Act Systems of Records Notice] wiith the FIPS 199 categorizations to ensure
that all PII and sensitive data are identified.” This statement is not clear but appears
to state the current FIPS 199 categorization is inadequate in that it does not identify
all PII and, further, that reviewing the systems of records identified in NCUA’s Privacy
Act notice would be helpful.

While review of NCUA’s SOR Notice may be helpful in reviewing the agency’s FIPS
199 categorization, we note that, both legally and operationally, the agency’s
responsibilities and requirements for information security and Privacy Act compliance
are different.


OIG Recommendations

1. Update privacy related policies in accordance with the Privacy Act, FOIA, and
   applicable OMB guidance. Specifically, NCUA’s Systems of Records notice has
7
  FIPS 199 requires categorization of information and information systems as having low, moderate, or high levels of risk in terms of
the security objectives of confidentiality, integrity, and availability. It gives examples of types of information that should be
categorized, such as “privacy,” but does not define types of information.



                                                                 2
                  REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                             COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10
                                                                              Appendix B
   not been updated since Feb 2000 and the Privacy Instruction has not been
   updated since its issuance in 1976. The agency has indicated that it is in process
   of updating its SOR and the Privacy Instruction.

   Comment: Reference to FOIA is inappropriate as noted above and a revised
   Systems of Records Notice has now been issued. 71 Fed. Reg. 77807 (Dec. 27,
   2006).

2. Ensure that NCUA develops a policy addressing the protection of credit union
   member data obtained during credit union examinations. Specifically identify CU
   member data as sensitive PII as required by OMB.

   Comment: NCUA already has several agency Instructions setting out agency
   policy on information security, including the protection of sensitive credit union
   data obtained in the examination process, for example, NCUA Instructions
   13500.2, 13500.05, and 13500.06. OCIO acknowledges agency policy can be
   improved and intends to update and consolidate several of these Instructions to
   address information security, including more specific direction to employees on
   safeguarding PII obtained in the credit union examination process.

3. Verify that all sensitive and PII data has been identified by performing PIAs on
Moderate and High systems as required by NIST 800-53A and the E-Gov Act and
comparing sensitive and PII data identified in the SOR, data that may be subject to
withholding based on FOIA exemptions, FIPS 199 categorization, and PIAs.

Comment: The Draft Review discusses the necessity of performing privacy impact
assessments (PIAs) and notes the key criterion for determining if a PIA is required is
“where a system change creates new privacy risks.” Quoting from OIG’s response to
management’s comments on OIG 2006 Report to OMB on the NCUA’s Compliance
with FISMA, the Draft Review states on page 7:

       Since the inception of the E-Gov Act, NCUA has implemented several
       changes to business process and technical solutions that meet the
       above criteria [a system change creates a new risk] as changes
       requiring an update or development of a PIA, including the distribution
       of external hard drives to store credit union audit data that are stored at
       the examiners’ homes, an agency-wide update in operating systems
       (from 2000 to XP), distribution of new notebooks, and partial
       implementation of sensitive data encryption.

       It is the opinion of the OIG that any one of the above changes
       constitutes a change of the magnitude that requires the development
       of a PIA.




                                            3
                   REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                              COMPLIANCE WITH OMB M-06-16
                                    Report #OIG-06-10
                                                                                 Appendix B
Management’s view is the specifically cited examples did not create new risks. To
the contrary, three of the changes actually decreased the privacy risk, while the
fourth had no impact on risk:

•   The external hard drives issued to field staff automatically encrypt the data stored
    on them. They replace the unencrypted media previously used by examiners for
    data backup, such as CD-ROMs and flash drives, thereby reducing privacy risk.
•   The Windows XP operating system is inherently more secure than Windows
    2000; converting to Windows XP therefore decreased the security and privacy
    risks to NCUA data.
•   The distribution of newer, better notebooks to replace the old notebooks had no
    impact on privacy risks.
•   Implementation of encryption of sensitive data obviously decreases the privacy
    risk.

At pages 6-7, the Draft Review quotes management’s previous response to the 2006
FISMA audit report. In brief, to avoid repetition, management’s view continues to be
that PIAs are not required for systems in existence before April 2003 unless alteration
to so-called legacy systems create new risks. The Draft Review correctly notes at
page 5 that PIAs for new systems will be developed.

The core of management’s disagreement with OIG may be over the meaning of the
word “system” and the criterion that there is an increase in risk.

As noted by OIG, NCUA has indeed conducted several procurements in recent
years, including the current notebook computers and the external hard drives for field
staff. OCIO’s view is these were procurements of hardware, not systems. Our view
is the word system generally means a software application that collects, processes,
or produces data, including the PII that is at the heart of the discussion regarding
PIAs.

When NCUA replaced the notebook computers, the systems that process PII were
all migrated from the old hardware platform to the new hardware platform. The
systems were not changed.

Nonetheless, as we have acknowledged previously, we recognize that conducting
PIAs is a worthwhile endeavor, which we intend to undertake, resources permitting.

4. Identify PII and include information protection needs for PII accessed,
   transported, or stored remotely in agency privacy related policies.

    Comment: Generally agree.

5. When updating agency polices and procedures, the agency should ensure that
   PII transported and/or stored offsite is specifically identified, including setting forth



                                             4
                 REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                            COMPLIANCE WITH OMB M-06-16
                                  Report #OIG-06-10
                                                                            Appendix B
   the steps needed to protect this data. In addition, incorporate encryption use in
   related security policies and procedures.

   Comment: Generally agree.

6. Increase employee awareness with respect to responsibility for protecting PII and
   other sensitive data.

   Comment: Generally agree.

7. When updating agency policies, ensure that PII with remote access is specifically
   identified including what steps need to be taken to protect this data.

   Comment: Generally agree.

8. Implement recommendations identified during the FISMA audit related to privacy,
   such as performing user account reconciliations and tightening user password
   policies to ensure appropriate authorized access.

   Comment: The user account reconciliation has been completed. Existing
   password policies are appropriate.

9. Ensure any encryption products implemented or considered for implementation
   comply with applicable laws and regulations, including FIPS 140-2.

   Comment: When NCUA purchased encrypted flash drives for all field staff,
   several constraints drove the selection. We needed a high quality product that
   used the NIST standard encryption technology, worked with our existing
   equipment, and was available in time for distribution at the Regional Conferences.
   It should be noted that NCUA had a very narrow window of time between receipt
   of OMB memo M-06-16 (dated June 23, 2006) and the NCUA Regional
   Conferences held two months later.

   We purchased sample drives from Lenovo, the manufacturer of our notebooks,
   and Kingston, one of the industry leaders in high quality storage. The Kingston
   product requires users to have administrative privileges, which made it unusable
   in our environment. The Lenovo device required administrative privileges to
   install on the machine, but not to use it, which is why we chose the device we did.

   In the future, to the extent that we can find NIST-certified products that meet our
   quality and performance requirements as well as our schedule demands, we will
   ensure, to the best of our ability, that we purchase certified products.

10. Update security policies and procedures with encryption instructions, user
    responsibilities, and prohibit use of CDs, personal USB drives, and other
    unencrypted media for storage of sensitive and/or PII data.


                                          5
                  REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
                             COMPLIANCE WITH OMB M-06-16
                                   Report #OIG-06-10
                                                                               Appendix B

   Comment: Generally agree.

11. When Blackberry devices are issued, ensure they are configured so
    reauthentication is required after 30 minutes of inactivity. In addition, determine if
    the configuration can be locked down to prevent users from changing the
    configuration.

   Comment: This recommendation has been implemented.

Conclusion

Thank you for the opportunity to comment. If you believe it would be helpful to
discuss any of the comments before issuing your final Review, we are available to
meet or discuss them with your staff.




                                            6
